               f 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Needs to Improve
                     Safeguards for Personally
                     Identifiable Information
                     Report No. 14-P-0122                    February 24, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                                Rudolph M. Brevard
                                                     Cheryl Reid
                                                     Neven Soliman
                                                     Nii-Lantei Lamptey
                                                     Rodney T. Allison




Abbreviations

APO             Agency Privacy Officer
DIB             Data Integrity Board
DNP             Do Not Pay
EPA             U.S. Environmental Protection Agency
FY              Fiscal Year
LPO             Liaison Privacy Official
NIST            National Institute of Standards and Technology
OEI             Office of Environmental Information
OIC             Office of Information Collection
OIG             Office of Inspector General
OMB             Office of Management and Budget
PII             Personally Identifiable Information


Cover photo:	      EPA OIG photo depicting an individual stealing someone else’s social security
                   card and driver’s license.



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General Hotline 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2431T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                14-P-0122
                                                                                                       February 24, 2014
                        Office of Inspector General


                        At a Glance

Why We Did This Review                EPA Needs to Improve Safeguards for Personally
The U.S. Environmental
                                     Identifiable Information
Protection Agency (EPA) must
safeguard individuals’                What We Found
Personally Identifiable
Information (PII) consistent with    The EPA has not created formal policies and          The lack of stronger privacy
the Privacy Act, the                 procedures for several processes that contribute     program processes and
E-Government Act of 2002,            to the safeguarding of PII and that ensure           procedures places the
Office of Management and             compliance with federal requirements. The EPA        EPA’s sensitive PII at a
Budget (OMB) directives, and         is using an inaccurate list of systems that          greater risk of compromise
other federal requirements.          contain sensitive PII to report to OMB and the       and misuse.
Without the proper security          Chief Information Officer. This listing was not
controls, the PII is vulnerable to   up-to-date and it contained incorrect data about systems. Having outdated
unauthorized access and use.         information may lead OMB and agency management to make decisions that may
                                     not be applicable to the agency’s needs. The lack of formal policies and
We sought to determine               procedures and management oversight over agency processes for safeguarding of
whether the EPA has                  PII does not ensure employees are aware of their responsibilities for protecting PII.
developed and implemented
policies, procedures and             The PII training process covered 50 percent of the prescribed topics and did not
processes for protecting             track training of agency personnel. Federal guidance provides specific training
sensitive PII in accordance with     topics and directs agencies to train employees on their privacy responsibilities.
federal and agency criteria.         The agency had not set up a process to track training completion and had not
                                     evaluated available privacy training before contracting to develop a new privacy
This report addresses the            training program. As a result, EPA employees are only trained on a portion of the
following EPA theme:                 requirements and management is unable to assess whether all employees have
                                     been trained.
  Embracing EPA as a high
   performing organization.           Recommendations and Planned Corrective Actions

                                     We recommend that the EPA implement a “rules and consequences” procedure
                                     for safeguarding PII; develop policies and procedures for matching programs;
                                     develop and implement a process for maintaining an accurate, current listing of
                                     systems that contain sensitive PII; implement a process to train individuals who
                                     access PII; and conduct reviews of available training before the agency enters
                                     into contracts.

                                     The agency concurred with the report’s recommendations and provided
                                     corrective action plans, which we found acceptable. The agency initially did not
                                     agree with recommendation 6 of the draft report and proposed an alternative
For further information,             corrective action. We met with agency officials and revised recommendation 6,
contact our public affairs office    and the agency concurred with the revised recommendation.
at (202) 566-2391.

The full report is at:                Noteworthy Achievements
www.epa.gov/oig/reports/2014/
20140224-14-P-0122.pdf               The EPA had created a privacy program as we recommended in a prior Office of
                                     Inspector General audit and provided a memorandum to us certifying completion
                                     of report recommendations.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                           February 24, 2014

MEMORANDUM

SUBJECT:       EPA Needs to Improve Safeguards for Personally Identifiable Information
               Report No. 14-P-0122

FROM:          Arthur A. Elkins Jr.

TO:            Renee Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG identified and corrective actions the OIG recommends. The Office of Information Collection is
the primary office responsible for the agency program that we reviewed during this audit. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position. The agency
concurred with all the report’s recommendations and provided high-level planned corrective action plans
with milestone dates, which we found acceptable.

Action Required

We will close this report upon issuance in our audit tracking system based on your response to the draft
report. We believe the proposed actions, when implemented, will adequately address the report’s
findings and recommendations. Please provide updated information in the EPA’s Management Audit
Tracking System as you complete each planned corrective action or revise any corrective actions and/or
milestone dates. If you are unable to meet your planned milestones, or believe other corrective actions
are warranted, please send us a memorandum stating why you are revising the milestones or why you
are proposing alternative corrective actions, as required by EPA Manual 2750.
 
If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
Assistant Inspector General, Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or
Rudolph M. Brevard, Director, Information Resources Management Assessments, at (202) 566-0893
or brevard.rudy@epa.gov.
EPA Needs to Improve Safeguards                                                                                                14-P-0122
for Personally Identifiable Information


                                    Table of Contents 


Chapters
    1     Introduction ........................................................................................................      1


                  Purpose .......................................................................................................    1     

                  Background .................................................................................................       1     

                  Responsible Office ......................................................................................          1     

                  Noteworthy Achievements ...........................................................................                2     

                  Scope and Methodology ..............................................................................               2     


    2     EPA’s Documented Processes for Protecting PII Need Improvement ..........                                                  4


                  Formal “Rules and Consequences” Procedure Does Not Exist...................                                        4

                  Agency Lacks Oversight Over a Matching Program ....................................                                5     

                  Mandated Contract Reviews Not Performed ...............................................                            6     

                  Process for Maintaining PII System List Needs Improvement ........................                                 7

                  Conclusion ...................................................................................................     7

                  Recommendations .......................................................................................            7

                  Agency Comments and OIG Evaluation ........................................................                        8


    3     Privacy Training Not Well Defined or Tracked ................................................                              9


                  Privacy Training Topics Not Covered ..........................................................                     9

                  Privacy Training Not Tracked in Program Offices .......................................                           10 

                  Conclusion...................................................................................................     11     

                  Recommendations .......................................................................................           11 

                  Agency Comments and OIG Evaluation ......................................................                         12 


    Status of Recommendations and Potential Monetary Benefits..............................                                         13 




Appendices
    A     Agency Response to Draft Report....................................................................                       14 


    B     Revised Agency Response to Report Recommendations .............................                                           21 


    C     Distribution .........................................................................................................    23

                                  Chapter 1

                                   Introduction
Purpose
            We sought to determine whether the U.S. Environmental Protection Agency
            (EPA) has developed and implemented policies, procedures and processes for
            protecting sensitive personally identifiable information (PII) in accordance with
            federal and agency criteria.

Background
            The Privacy Act of 1974 sets forth requirements for federal agencies when they
            collect, maintain or disseminate information about individuals. The act requires
            that federal agencies (a) collect minimal information necessary on individuals,
            (b) safeguard the information, and (c) allow individuals to inspect and correct
            erroneous information.

            It is the responsibility of the agency to provide information security protection for
            the use and/or disclosure of information collected or maintained by or on behalf
            of the agency. It is the policy of the EPA to safeguard individuals’ privacy in a
            manner consistent with the Privacy Act, the E-Government Act of 2002, Office of
            Management and Budget (OMB) directives and other federal requirements
            concerning privacy. Without the proper security controls, the PII information
            collected by agencies is vulnerable to unauthorized access and use.

Responsible Office

            The Office of Information Collection within the Office of Environmental
            Information (OEI) provides oversight of the EPA’s National Privacy Program.
            The EPA National Privacy Program provides leadership, direction and support for
            the agency’s privacy activities by developing policies, procedures, tools and
            guidance for administering the EPA’s requirements under the Privacy Act, the
            E-Government Act, the Federal Information Security Management Act, and
            policy and guidance issued by the President and OMB. The Privacy Act officer is
            the National Privacy Program manager responsible for coordinating and
            overseeing the agency’s Privacy Program, coordinating the publication of a
            system of records notices with program offices, and providing training or training
            opportunities for all key privacy personnel and agency employees.




14-P-0122                                                                                           1
Noteworthy Achievements
            The EPA had created a privacy program as we had recommended in a prior EPA
            Office of Inspector General (OIG) audit and provided a memorandum to OIG
            certifying completion of report recommendations. The EPA created a privacy policy
            and an agency-wide privacy program Intranet page.


Scope and Methodology
            We conducted this audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.

            We performed this audit at the EPA headquarters in Washington, D.C.,
            and collected and reviewed information from other EPA locations from
            December 2012 through August 2013. We reviewed federal requirements and
            guidelines associated with the safeguarding of PII and compared them to related
            internal policies and procedures used by the EPA. We also interviewed the EPA
            privacy officer, system owners and other agency officials to inquire about their
            internal processes for safeguarding PII.

            We randomly sampled six systems that contained sensitive PII, requested system
            documentation, and reviewed compliance with federal and internal policies and
            procedures for three of the six sampled systems.

            We conducted follow-up on the previous recommendations in an OIG audit report
            on the EPA’s Privacy Program management controls, EPA Needs to Strengthen its
            Privacy Program Management Controls, Report No. 2007-P-00035, dated
            September 17, 2007. We limited our review to determine whether the EPA took
            steps to implement the identified recommendations. We did not conduct testing to
            determine the effectiveness of the recommendations. In this prior report, we
            recommended that the OEI’s Director, Office of Information Collection:

               	 Establish and formally document key goals and activities for OEI’s
                  Records, Freedom of Information Act, and Privacy Branch associated with
                  the EPA’s Privacy Program.
               	 Establish and track performance measures associated with OEI’s Records,
                  the Freedom of Information Act, and Privacy Branch key privacy goals
                  and activities and measure Privacy Program progress.
               	 Update, implement and communicate the EPA’s privacy policies and
                  procedures and ensure they adequately address key tenets of the Privacy
                  Program.

14-P-0122                                                                                       2
            	 Develop and implement processes for managing the EPA privacy policies
               and procedures to ensure they are updated with appropriate changes.
            	 Establish a means of making agency privacy policies and procedures
               accessible to the EPA personnel.
            	 Establish a monitoring and oversight process to help ensure that managers
               and employees are implementing and complying with the established
               agency privacy policies and procedures.




14-P-0122                                                                                  3
                                   Chapter 2
            EPA’s Documented Processes for Protecting
                      PII Need Improvement
             The EPA’s privacy policies and procedures lacked several processes that
             contribute to the safeguarding of PII and ensure compliance with federal
             requirements. The OMB and the EPA’s Privacy Policy prescribe the practices for
             implementing the agency’s privacy program. These processes were deficient
             because:

                	 A formal “rules and consequences” procedure required by OMB
                   Memorandum 07-16 did not exist prior to us questioning the agency.
                	 Policies and procedures that would govern the need for written agreements
                   in order for the EPA to participate in matching programs with other
                   agencies and would require employees to communicate matching activities
                   to the appropriate officials were not created.
                	 The EPA did not create oversight processes for ensuring mandated contract
                   reviews were performed to ensure contracts contain language to make the
                   provisions of the Privacy Act of 1974 binding on the contractor and the
                   employees.
                	 The EPA is using an inaccurate list of systems that contain sensitive PII to
                   report to OMB and the Chief Information Officer on a continuous basis.
                   This listing was not up-to-date and it contained incorrect data about
                   systems. The agency has not developed a process for reviewing and
                   updating this list of systems that contain sensitive PII on a timely basis to
                   ensure accuracy.
 
             Having outdated information, as presented by the listing of systems that contain
             PII, may lead OMB and agency management to make decisions that may not be
             applicable to the agency’s needs. The lack of formal policies and procedures, and
             also management oversight over agency processes for protecting PII, does not
             ensure employees are aware of their responsibilities for protecting PII in
             accordance with federal requirements. As a result, employees may inadvertently
             mistreat, misuse and/or expose PII without proper knowledge of their
             responsibilities.

Formal “Rules and Consequences” Procedure Does Not Exist
             The EPA’s Privacy Policy contains a high level policy statement addressing “rules
             and consequences” for protecting PII but needs to publicize specific details via a
             “rules and consequences” procedure. OMB Memorandum 07-16 states that each
             agency is responsible for developing and implementing an appropriate policy
             outlining the rules of behavior and identifying consequences and corrective actions


14-P-0122                                                                                          4
            available for failure to follow these rules. In addition, the memorandum states that
            policy should describe the terms and conditions that affected individuals shall be
            subject to and identify available corrective actions.

            To comply with the OMB memorandum, the agency developed an Intranet page
            that contains “rules and consequences.” Although this Intranet page contained
            rules of conduct and consequences with regard to safeguarding PII, the agency
            had not developed the information on the website into an official agency
            procedure. Using an Intranet Web page to address a procedure requirement does
            not ensure that agency personnel are aware of the federal requirements.
            Employees may inadvertently mistreat, misuse and/or expose PII without proper
            knowledge of their responsibilities and the consequences for noncompliance.  

Agency Lacks Oversight Over a Matching Program
 
            The agency planned to participate in a matching program without providing
            needed oversight for ensuring that the required documentation exists and
            appropriate stakeholders are involved. The Privacy Act of 1974 identifies a
            matching program as any computerized comparison of two or more automated
            systems of records or a system of records with non-federal records for the purpose
            of establishing or verifying the eligibility of (or continuing compliance with
            statutory and regulatory requirements by) applicants for cash or in-kind assistance
            or payments under federal benefit programs. The Privacy Act of 1974 requires
            that a source agency and a recipient agency complete a written agreement before
            disclosing a record from a system of record for use in a computer matching
            program. The act also requires that the agency’s Data Integrity Board (DIB)
            review, approve and maintain all written agreements for matching programs.

            In addition, the EPA’s Privacy Policy states that if the agency is involved in a
            computer matching program, the EPA must establish a DIB, consisting of senior
            officials, to oversee and coordinate the implementation of the matching program.
            Lastly, the EPA Privacy Policy states that the agency privacy officer is
            responsible for oversight over system manager activities to ensure that all
            privacy-related, statutory and regulatory requirements are met.

            The Office of the Chief Financial Officer was preparing to transmit a file from the
            agency’s Compass system into the U.S. Treasury’s Do Not Pay (DNP) Portal on
            March 31, 2013. The Compass financial system replaced the agency’s Integrated
            Financial Management System, which was a System of Record. The agency
            representatives indicated that the System of Record Notice for the Integrated
            Financial Management System may still be used for Compass. The EPA never
            identified the DNP initiative as a likely matching program. In addition, a written
            matching agreement between the EPA’s financial system and the U.S. Treasury’s
            DNP Portal had not been initiated. Also, the agency has not provided coordination
            or oversight to communicate the need for the DIB to convene in order to oversee


14-P-0122                                                                                          5
            the implementation of this matching program. Lastly, system owners for the data
            being transferred were not aware of the DIB’s role in matching programs.

            The EPA has not created written procedures that require a written matching
            agreement before the agency engages in a matching program that describes how
            employees are to communicate matching activities to appropriate officials and the
            privacy office representative. There are also no policies or procedures which require
            the privacy office representative to solicit responses on a continuous basis from
            agency regions and program offices to determine the existence of matching programs.
            As such, the agency representative was not aware that an EPA office was
            participating in a matching program and the agency representative lacked needed
            information to advise the DIB to meet to approve agency matching programs.
            Subsequent to issuing our discussion document, the agency indicated that Office of
            Technology Solutions representatives indicated that during phase I agency payment
            files are to be compared against public databases that do not contain PII and,
            therefore, computer matching requirements are not applicable. However, in phase 2 of
            the DNP implementation (June 2014 and beyond), the U.S. Department of Treasury
            will begin using restricted versions of these databases and the EPA would then need
            matching agreements in place.

            Without written procedures, the EPA may not be implementing matching programs
            in accordance with federal requirements and agency employees may not be able to
            properly identify and classify ongoing matching program activities. Further,
            inaccurate information about agency matching programs may be reported to
            management and OMB.

Mandated Contract Reviews Not Performed
            The agency did not conduct required biennial contract reviews. An agency
            representative stated the contract reviews were last performed in 2008. However,
            the representative could not provide us with evidence of reviews done since 2008.
            OMB Circular A-130, Appendix I, requires agencies to review every 2 years a
            random sample of agency contracts to ensure they contain language to make the
            provisions of the Privacy Act of 1974 binding on the contractor and the
            employees. The EPA’s Conducting Privacy On-site Reviews procedures state that
            the agency representative will provide instructions to information management
            officials and Liaison Privacy Officials (LPOs) for conducting Privacy Act reviews
            as set forth in OMB Circular A-130, Appendix I.

            The EPA has not developed an oversight process for ensuring that contract
            reviews are performed biennially. Also, the EPA’s Conducting Privacy On-site
            Reviews procedure does not describe the details for meeting this OMB
            requirement. By not reviewing a sample of these agency contracts, there is an
            increased risk that contracts may omit the appropriate language that binds the
            provisions of the Privacy Act to contractors. As a result, contractors may not be
            aware that they are responsible for complying with the Privacy Act.

14-P-0122                                                                                       6
Process for Maintaining PII System List Needs Improvement

            The EPA maintains an inaccurate list of systems that contain sensitive PII. 

            OMB Memorandum 07-16 requires agencies to review their current holdings of all 

            PII and ensure, to the maximum extent practical, that such holdings are accurate, 

            relevant, timely and complete. The EPA relies on the program offices to provide 

            information on the agency’s systems with sensitive PII. According to the agency, 

            there are no defined intervals as to when program offices are to furnish this to the 

            privacy office, but the process for updating this listing is done on an ad-hoc basis. 

            The agency uses this list of systems to report to OMB and agency management. 

            This report contained inaccuracies. 


            In our sample of six selected systems that contained sensitive PII, we found that 

            only three were valid systems. The agency is not reviewing and updating the list of 

            systems that contain sensitive PII on a regular basis to ensure accuracy. We

            concluded that the agency updated the list of sensitive systems only as a result of 

            our audit inquiry. Further, agency policies or procedures do not describe the 

            LPO’s responsibilities for updating the Privacy Office on the status of systems 

            with PII. Using an inaccurate list of systems with sensitive PII may lead OMB and 

            agency management to make decisions that may not be applicable to the agency’s 

            needs. 

 
Conclusion
 
            The missing elements of the agency’s privacy program could significantly degrade
            the EPA’s ability to safeguard PII. Agency employees may not be aware of
            requirements for safeguarding PII, the EPA could potentially transmit PII without
            obtaining written agreement, and the agency may have contractors who access PII
            not informed on responsibilities for complying with privacy requirements. Without
            additional PII safeguards, the agency may be at risk of PII being mistreated,
            misused and/or exposed.
 
Recommendations
 
            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer:

                   1.	 Develop an implementing procedure for rules of behavior and
                       consequences.

                   2.	 Develop and implement updated agency matching program procedures
                       that:

                       a.	 Define roles and responsibilities for communicating matching
                           activities to the Privacy Office and the DIB.


14-P-0122                                                                                             7
                      b.	 Require a written matching agreement before the agency engages in
                          a matching program.

                      c.	 Define the agency Privacy Officer’s oversight responsibilities.

                      d.	 Convene the DIB for matching programs, as needed.

                      e.	 Obtain a written agreement for the current matching program, as
                          needed.

               3. 	 Develop and implement an oversight process that describes in detail how
                    the EPA is to perform and document mandated contract reviews.

               4. 	 Develop and implement a process for maintaining an accurate, up-to-date
                    listing of systems that contain sensitive PII.

Agency Comments and OIG Evaluation
            The agency agreed with these recommendations and provided us with a response
            to the draft report which included corrective actions with milestone dates. We
            found the response to be acceptable and updated the report as appropriate.
            Subsequent to issuing the draft report, we met with the agency to discuss the
            report’s findings and recommendations. As a result of those discussions and the
            agency’s response to the draft, we updated the report as appropriate.




14-P-0122                                                                                     8
                                   Chapter 3
            Privacy Training Not Well Defined or Tracked

            The EPA had not annually trained agency personnel on all prescribed topics.
            The EPA also had not established an oversight process to ensure LPOs and all
            personnel that access PII are trained. OMB requires agencies to initially train
            employees on their privacy and security responsibilities before permitting them
            access to information and information systems. Federal guidance also specifies
            the topics for training personnel to reduce the possibility that PII will be accessed,
            used or disclosed inappropriately. The agency incorporates its annual privacy
            training into the annual information security training but the privacy training
            portion does not contain all the topics as prescribed by the National Institute of
            Standards and Technology (NIST). The EPA’s process for tracking training lacks
            steps to ensure that LPOs who miss training obtain training at a later date. Further,
            the agency’s processes lack oversight responsibilities to monitor whether LPOs
            train their offices’ employees. As a result, EPA employees were not trained on all
            of the prescribed topics for their responsibilities for protecting PII. Senior agency
            officials may not have the information necessary to take additional measures to
            address weaknesses in the privacy training program due to the lack of oversight
            for ensuring personnel are trained.

Privacy Training Topics Not Covered
            The EPA had not covered all topics during its annual security awareness training
            as prescribed by the NIST. OMB memorandum 07-16 requires agencies to
            initially train employees on their privacy and security responsibilities before
            permitting them access to information and information systems. It also requires
            agencies to provide annual refresher training to ensure employees continue to
            understand their responsibilities. NIST SP 800-122 states that organizations
            should reduce the possibility that PII will be accessed, used or disclosed
            inappropriately by training all individuals before being granted access to systems
            containing PII.

            The EPA incorporates privacy training within its annual Information Security
            Awareness Training. However, this training contains only some of the training
            topics specified by NIST. As a result, as shown by table 1, the EPA’s privacy
            training program only covers 50 percent of the topics prescribed by NIST.




14-P-0122                                                                                            9
            Table 1: Training topics and EPA training
                                                                            Topic included In
                       NIST-specified privacy training topics                 EPA training
              Applicable privacy laws, regulations and policies                     N
              Restrictions on data collection, storage and use of PII              Y
              Roles and responsibilities for using and protecting PII              N
              Appropriate disposal of PII                                          Y
              Sanctions for misuse of PII                                          N
              Recognition of a security or privacy incident involving PII          Y
              Retention schedules for PII                                          N
              Roles and responsibilities in responding to PII-related              Y
              incidents and reporting.
            Source: NIST topics and OIG analysis.

            The agency is developing and updating its privacy training. However, the agency
            had not evaluated the current privacy awareness training available on its online
            training portal before it contracted to develop a new training program. When we
            reviewed the plan progress in July 2013, the training program was approximately
            9 percent complete with $9,722 expended. We estimate that the EPA will spend
            approximately $100,000 to complete development of the new training program.

            Without ensuring all privacy training topics are taught, the EPA faces the
            possibility that agency employees are unaware of all the measures necessary to
            protect sensitive PII before they are granted access to agency information and
            information systems.

Privacy Training Not Tracked in Program Offices
            The EPA does not have a formal process for tracking the training of agency
            personnel. The EPA indicated that it has a system in place to track training for
            their LPOs. In addition, the EPA indicated that the annual security awareness
            training is tracked centrally, but the EPA has issues with some program offices’
            training and tracking the training of their staff. We requested verifications from
            three LPOs regarding the training they provide to their office personnel before
            they are given access to agency information systems. Two LPOs indicated they
            did not have training records and appeared to not know the training requirement
            when they responded that employees did not need training, even though the
            system in question was identified as containing sensitive PII. One LPO did not
            respond to our request for information. Our audit also disclosed that the EPA
            lacks processes to verify whether LPOs responsible for training personnel within
            their offices monitor the training status of personnel. The EPA’s Privacy Policy
            states that the LPOs are to ensure proper training for individuals in their area of
            responsibility, including monitoring online training for employees. The policy
            also designates the agency’s Privacy Act Officer with providing oversight to
            ensure the EPA requirements are met and with training personnel on the policy’s
            privacy requirements.

14-P-0122                                                                                         10
            The EPA offers specialized LPO training once per year and had not set up a
            process to ensure LPOs that miss the training are trained. While the EPA uses
            sign-in sheets to track training attendance, the agency neither uses the rosters to
            identify who missed training nor provides supplemental training to the LPOs to
            ensure they are kept current about their duties.

            Once training is given, it is important to ensure the agency has processes in place
            to track who completes the training and inform senior agency officials on the
            status of the training program. The agency lacks necessary internal control
            processes, including tracking the training status of employees and a mechanism to
            inform management on the status of their office’s training, to ensure the
            effectiveness of provided training and to make decisions regarding whether
            additional training is required to ensure employees are aware of their
            responsibilities necessary to protect PII.
 
Conclusion
 
            The EPA had not trained all individuals on all prescribed topics for safeguarding
            PII. Ensuring that agency employees are aware of their responsibilities for
            protecting PII is critical in order for the agency to ensure it is taking all steps
            necessary to safeguard PII. Furthermore, the agency does not have an oversight
            process to track the training of those individuals throughout the agency who have
            a specialized role in providing privacy training. Without this process, the agency
            does not have assurance that all individuals are trained in carrying out their duties
            in support of ensuring that all users who access agency PII know the requirements
            for safeguarding PII.
 
Recommendations
            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer:

               5. 	 Establish and implement a process to train all individuals who access PII
                    based on their roles and responsibilities. This process should include
                    training on all PII topics as prescribed by NIST.

               6.	 Continue with current privacy training plans and establish a process to
                   fully document business cases and due diligence reviews and follow this
                   process should future modifications be needed in the current privacy
                   training contract.

               7. 	 Develop and implement an oversight process to monitor that LPOs and all
                    individuals who access PII are trained on their responsibilities for
                    protecting PII. The oversight process should include a method to inform
                    senior agency officials on the status of their office’s completion of
                    training.

14-P-0122                                                                                           11
Agency Comments and OIG Evaluation
            The agency agreed with recommendations 5 and 7 and provided high-level
            corrective action plans with milestone dates which we found acceptable. The
            agency initially did not agree with recommendation 6. The agency stated the
            Agency Privacy Officer exercised due diligence by conducting market research
            before entering into the current contract with the privacy training vendor.
            However, the agency was not able to provide us evidence to support its assertion.
            We subsequently met with agency representatives to discuss the finding and
            related corrective action. Management agreed that steps could be taken to
            strengthen its oversight processes and we updated the recommendation to be more
            specific as to the corrective action needed to address the finding. The agency
            concurred with the updated recommendation and provided us with a high-level
            corrective action plan with completion dates, which we found acceptable.




14-P-0122                                                                                       12
                                  Status of Recommendations and 

                                    Potential Monetary Benefits 



                                                                                                                                      POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                          Planned
 Rec.     Page                                                                                                           Completion   Claimed    Agreed-To
 No.       No.                              Subject                              Status1        Action Official             Date      Amount      Amount

  1         7     Develop an implementing procedure for rules of behavior          O       Assistant Administrator for    9/30/14
                  and consequences.                                                        Environmental Information
                                                                                             and Chief Information
                                                                                                     Officer

   2        7      Develop and implement updated agency matching                   O       Assistant Administrator for    6/30/14
                   program procedures that:                                                Environmental Information
                    a. Define roles and responsibilities for                                 and Chief Information
                       communicating matching activities to the Privacy                              Officer
                       Office and the DIB.
                    b. Require a written matching agreement before the
                       agency engages in a matching program.
                    c. Define the agency Privacy Officer’s oversight
                       responsibilities.
                    d. Convene the DIB for matching programs, as
                       needed.
                    e. Obtain a written agreement for the current
                       matching program, as needed.
   3        8     Develop and implement an oversight process that                  O       Assistant Administrator for    3/31/14
                  describes in detail how the EPA is to perform and                        Environmental Information
                  document mandated contract reviews.                                        and Chief Information
                                                                                                     Officer

   4        8     Develop and implement a process for maintaining an               O       Assistant Administrator for    6/30/14
                  accurate, up-to-date listing of systems that contain                     Environmental Information
                  sensitive PII.                                                             and Chief Information
                                                                                                     Officer

   5       11     Establish and implement a process to train all individuals       O       Assistant Administrator for    9/30/14
                  who access PII based on their roles and responsibilities.                Environmental Information
                  This process should include training on all PII topics as                  and Chief Information
                  prescribed by NIST.                                                                Officer

   6       11     Continue with current privacy training plans and establish a     O       Assistant Administrator for    3/31/14
                  process to fully document business cases and due                         Environmental Information
                  diligence reviews and follow this process should future                    and Chief Information
                  modifications be needed in the current privacy training                            Officer
                  contract.

   7       11     Develop and implement an oversight process to monitor            O       Assistant Administrator for    9/30/14
                  that LPOs and all individuals who access PII are trained on              Environmental Information
                  their responsibilities for protecting PII. The oversight                   and Chief Information
                  process should include a method to inform senior agency                            Officer
                  officials on the status of their office’s completion of
                  training.


O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




14-P-0122                                                                                                                                               13
                                                                                  Appendix A

                      Agency Response to Draft Report
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                           WASHINGTON, D.C. 20460


                                     NOV '7 2013
                     OFFICE OF ENVIRONMENTAL INFORMATION

MEMORANDUM

SUBJECT:           Response to Office of Inspector General Draft Report No. OA-FY13-
                   0082 "EPA Needs to Improve Processes for Safeguarding Personally
                   Identifiable Information," dated August 19, 2013

FROM:                                            /)
                                           J:·
TO:                Arthur A. Elkins, Jr.
                   Inspector General

Thank you for the opportunity to respond to the issues and recommendations described in the
draft audit report.

The Office of Environmental Information's (OEI) response to the audit's findings and
recommendations is attached. For the recommendations with which we agree, we provide high-
level intended corrective actions and estimated completion dates. For the recommendations with
which OEI does not agree, we explain our position and provide proposed alternatives to the
recommendations, as appropriate.

EPA's National Privacy Program, established in 2007, is striving to ensure that EPA is in
compliance with statutory requirements, guidance and standards issued by the Office of
Management and Budget and the National Institute of Standards and Technology. The Program
is currently revising the Agency's Privacy Policy to address emerging privacy areas such as
social media and cloud computing, and to address privacy needs not identified when the initial
policy was issued. The revised Policy is scheduled to be issued in Q2 FY 2014. The Program
also is engaged in developing a five-year strategic plan to guide the Agency in meeting its
responsibilities to ensure Personally Identifiable Information (PII) is adequately protected.




14-P-0122                                                                                        14
OEI appreciates this evaluation by the Office of Inspector General (OIG) and the opportunity to
address each finding and recommended action. We are committed to ensuring full compliance
with federal privacy requirements for protecting Agency PII. If you have questions regarding this
response, please contact Judy Hutt, the Agency Privacy Officer, in the Office of Information
Collection, Collection Strategies Division, FOIA and Privacy Branch at 202-566-1668.

Attachment

cc: 	   Vaughn Noga
        Andrew Battin
        Jeff Wells
        John Moses
        Deborah Williams
        Judy Hutt
        Scott Dockum
        Brenda Young




14-P-0122                                                                                           15
Attachment 1

Response to OIG Findings and Recommendations

Chapter 2 - EPA's Documented Processes for Protecting PII Need Improvement

OIG Recommendation 1: Finalize and implement a rules and consequences policy related
to safeguarding PII.

Corrective Action 1: OEI agrees and will develop implementing procedures for rules of
behavior and consequences by September 30, 2014. However, we believe we do have a formal
rules and consequences policy. (See Agency Privacy Policy, Section 6.)

OIG Recommendation 2: Develop and implement updated Agency "matching program "
policies and procedures.

Corrective Action 2: OEI agrees that implementing procedures for a matching program are
needed and these will be developed. The implementing procedures are planned for completion by
June 30, 2014, and will outline the steps required to ensure compliance with the Privacy Act
when establishing a matching program. OEI will also include "matching agreements" as a topic
in the privacy trainings under development to ensure that key privacy personnel, including
managers, are aware of this requirement.

Discussion of OIG Finding 2: Lack of Oversight Over a Matching Program.
OEI believes the report is not accurate in its supporting narrative. The OIG states, "EPA has not
created written policies or procedures that require a written matching agreement before the
Agency engages in a matching program." EPA's Privacy Policy addresses the matching program
requirements for a written matching agreement, along with the requirement to establish a Data
Integrity Board (DIB) to oversee any matching activity (see pp. 7, 14 and 15). As we stated
previously, the Privacy Act requirements for a matching agreement did not apply to Phase I of
the "Do Not Pay" data sharing activity referenced in the report. A matching agreement will be in
place to support Phase II of the "Do Not Pay" data sharing activity which will commence in CY
2014.

OIG Recommendation 3: Develop and implement an oversight process that describes in
detail how the EPA is to perform and document mandated contract reviews.

Corrective Action 3: OEI will develop an oversight process in Q2 of FY 2014 to ensure
contract reviews are performed every two years. OEI is currently collaborating with the Office of
Administration Resources (OARM) to develop a process for OARM to conduct privacy reviews
of contracts and report the results to the Privacy Program. The biennial review process will be
documented to guide future reviews.




14-P-0122                                                                                           16
Discussion of OIG Finding 3: Contract Reviews Not Performed.
The draft report states that OEI could not provide the 010 with either the name of the individual
who performed the previous reviews or evidence they were conducted. OEI provided the names
of the individuals who performed the contract reviews, along with documentation, but was
unable to locate the additional supporting evidence required by the OIG.

OIG Recommendation 4: Develop and implement a process for maintaining an accurate,
up-to-date listing of systems that contain sensitive PII.

Corrective Action 4: OEI will develop a process for regularly requesting inventory updates
from Liaison Privacy Officials (LPOs) and posting the updates to the privacy website. OEI plans
to complete this action by June 30, 2014. In addition, OEI will revise its Privacy Policy to
describe the LPO's responsibility for reporting on the status of PII systems in their organizations
and include this requirement in the privacy training currently being developed for Agency LPOs.

Discussion of OIG Finding 4: Data Used for Official Reporting Not Always U p to Date. OEI
disagrees with the statement that an inaccurate listing of systems is used to report to the Chief
Information Officer (CIO) and OMB. The Privacy Program regularly updates the list of systems
that contain sensitive PII based on information provided by LPOs on the status of these systems.
At the time the OIG reviewed the listing of sensitive PII systems posted on the Privacy intranet
site, the master list of sensitive PII systems was being reconciled with a recent data call on
sensitive PII systems initiated by the Senior Agency Information Security Officer (SAISO).

Chapter 3- Privacy Training Not Well-Defined or Tracked

OIG Recommendation 5: Establish and implement a process to train all individuals who
access Pll based on their roles and responsibilities. This process should include training on
all Pll topics as prescribed by NIST.

Corrective Action 5: The Privacy Program is developing online role-based training courses for
key privacy personnel and mandatory general awareness training for all employees, which will
be available in Q4 FY 2014. Online trainings for personnel who access PII will cover all PII
topics as prescribed by the National Institute of Standards and Technology.

Discussion of OIG Finding 5: Privacy Training Topics Not Covered.
The OIG report states current annual information security training, which has a privacy
component, does not cover all the privacy training topics prescribed by the National Institute of
Standards and Technology. Privacy trainings conducted by the Agency Privacy Officer, that
augment the annual information security training, meet the requirements.

OIG Recommendation 6: Establish and implement a process to conduct due diligence
reviews of available training before the Agency enters into contract s to develop further
privacy training.

Corrective Action 6: OEI disagrees with this finding. The Agency Privacy Officer exercised
due diligence by conducting market research before entering into the current contract with the


14-P-0122                                                                                             17
privacy training vendor. The Agency Privacy Officer was involved in the review and testing of
the training identified in the report as "the training on the on line training portal" (i.e., Skillport)
and determined the training was not sufficient to meet Privacy Program needs. This evaluation
process will continue.

OIG Recommendation 7: Develop and implement an oversight process to monitor that LPOs
and all individuals who access PII are trained on their responsibilities for protecting PI! The
oversight process should include a method to inform senior Agency officials on the status of their
office 's completion of training.

Corrective Action 7: Online privacy trainings will be offered and tracked via Skillport, the
Agency's online training portal. The Agency Privacy Officer, LPOs and EPA managers will be
able to track who has taken the training and provide training opportunities for all who require it.
The role-based training for LPOs is scheduled to be available in Q1 FY 2014. The general
awareness training is expected to be available later in FY 2014.




14-P-0122                                                                                                  18
Attachment 2

Agency’s Response To Report Recommendations

Agreement Recommendation                       High-Level lntended               Estimated Completion
No.                                            Corrective Action(s)              by Quarter and FY 

1           Finalize and implement a rules     The Agency agrees to develop      4th Quarter FY 2014
            and consequences policy related    implementing procedures for       (9/30/14) 
            to safeguarding PH.                rules of behavior and
                                               consequences. 

2           Develop and implement updated The implementing procedures               3rd Quarter FY 2014
            Agency matching program              will outline the steps required to (6/30/14) 
            policies and procedures that:        ensure compliance with the
            a. Define roles and responsibilities Privacy Act when establishing a
            for communicating matching           matching program. The Agency
            activities to the APO and the DIB. will also include "matching
            b. Require a written matching        agreements" as a topic in the
            agreement before the Agency          privacy trainings under
            engages in a matching program.  development to ensure that key
            c. Define the APO's oversight        privacy personnel, including
            responsibilities.                    managers, are aware of this
            d. Convene the DIB for matching requirement. 
            programs, as needed. 
            e. Obtain a written agreement for
            the current matching program, as
            needed. 

3           Develop and implement an            The Agency will develop an      2nd Quarter FY 2014
            oversight process that describes in oversight process by March 31,  (3/31/14) 
            detail how the EPA is to perform 2014, to ensure contract reviews
            and document mandated contract are performed every two years. 
            reviews. 



4           Develop and implement a process    The Agency will develop a          3rd Quarter FY 2014
            for maintaining an accurate, up-   process for regularly requesting (6/30/14) 
            to-date listing of systems that    inventory updates from LPOs and
            contain sensitive PII.             posting the updates to the privacy
                                               website. 




14-P-0122                                                                                                 19
5            Establish and implement a process Online trainings for personnel     4th Quarter FY 2014
             to train all individuals who access who access PH will cover all PII (9/30/14) 
             PII based on their roles and        topics as prescribed by the
             responsibilities. This process      National Institute of Standards
             should include training on all PII and Technology. 
             topics as prescribed by NIST. 


7            Develop and implement an               Online privacy trainings will be 4th Quarter FY 2014 
             oversight process to monitor that      offered and tracked via Skillport, (9/30/14)
             LPOs and all individuals who           the Agency’s online training
             access PII are trained on their        portal.
             responsibilities for protecting PII.
             The oversight process should
             include a method to inform senior
             Agency officials on the status of
             their office’s completion of
             training.

Disagreements
 No.     Recommendation                             Agency                           Proposed
                                                    Explanation/Response             Alternative
 6          Establish and implement a process  The Agency Privacy Officer           EPA will continue with 
            to conduct due diligence reviews  exercised due diligence by            the current training
            of available training before the   conducting market research before plans for privacy
            Agency enters into contracts to    entering into the current contract training in Skillport, the
            develop further privacy training.  with the privacy training vendor. Agency's online
                                               The Agency Privacy Officer was training portal. 
                                               involved in the review and testing
                                               of the training identified in the
                                               report as "the training on the
                                               online training portal" (i.e., Skill
                                               port) and determined the training
                                               was not sufficient to meet Privacy
                                               Program needs. 




14-P-0122                                                                                                   20
                                                                                          Appendix B

Attachment 2

                         Revised Agency Response to
                          Report Recommendations
Agreements
     No.             Recommendation                  High-Level Intended         Estimated Completion
                                                     Corrective Action(s)         by Quarter and FY

 1          Finalize and implement a rules and      The Agency agrees to         4th Quarter FY 2014
            consequences policy related to          develop implementing         (9/30/14)
            safeguarding PII.                       procedures for rules of
                                                    behavior and
                                                    consequences.
 2          Develop and implement updated           The implementing             3rd Quarter FY 2014
            Agency matching program policies        procedures will outline      (6/30/14)
            and procedures that:                    the steps required to
            a. Define roles and responsibilities    ensure compliance with
               for communicating matching           the Privacy Act when
               activities to the APO and the DIB.   establishing a matching
                                                    program. The Agency
            b. Require a written matching
                                                    will also include
               agreement before the Agency          “matching agreements”
               engages in a matching program.       as a topic in the privacy
            c. Define the APO’s oversight           trainings under
               responsibilities.                    development to ensure
            d. Convene the DIB for matching         that key privacy
               programs, as needed.                 personnel, including
                                                    managers, are aware of
            e. Obtain a written agreement for the
                                                    this requirement.
               current matching program, as
               needed.

 3          Develop and implement an oversight      The Agency will develop      2nd Quarter FY 2014
            process that describes in detail how    an oversight process by      (3/31/14)
            the EPA is to perform and document      March 31, 2014, to
            mandated contract reviews.              ensure contract reviews
                                                    are performed every two
                                                    years.
 4          Develop and implement a process for     The Agency will develop      3rd Quarter FY 2014
            maintaining an accurate, up-to-date     a process for regularly      (6/30/14)
            listing of systems that contain         requesting inventory
            sensitive PII.                          updates from LPOs and
                                                    posting the updates to the
                                                    privacy website.




14-P-0122                                                                                               21
     No.              Recommendation                    High-Level Intended         Estimated Completion
                                                        Corrective Action(s)         by Quarter and FY

 5          Establish and implement a process to       Online trainings for         4th Quarter FY 2014
            train all individuals who access PII       personnel who access PII     (9/30/14)
            based on their roles and                   will cover all PII topics
            responsibilities. This process should      as prescribed by the
            include training on all PII topics as      National Institute of
            prescribed by NIST.                        Standards and
                                                       Technology.
 6          Continue with current privacy              The Agency will develop      2nd Quarter FY2014
            training plans and establish a process     a process to document        (3/31/14)
            to fully document business cases and       business cases and due
            due diligence reviews and follow this      diligence reviews should
            process should future modifications        future trainings be
            be needed in the current privacy           required.
            training contract.

 7          Develop and implement an oversight         Online privacy trainings     4th Quarter FY 2014
            process to monitor that LPOs and all       will be offered and          (9/30/14)
            individuals who access PII are trained     tracked via Skillport, the
            on their responsibilities for protecting   Agency’s online training
            PII. The oversight process should          portal.
            include a method to inform senior
            Agency officials on the status of their
            office’s completion of training.




14-P-0122                                                                                                  22
                                                                                 Appendix C

                                     Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Environmental Information
Director, Office of Information Collection, Office of Environmental Information
Deputy Director, Office of Information Collection, Office of Environmental Information
Audit Follow-Up Coordinator, Office Environmental Information




14-P-0122                                                                                     23
